Final Report: ED-OIG/A02-C0017
                          U.S. DEPARTMENT OF EDUCATION
                                OFFICE OF INSPECTOR GENERAL
                                     7S Park Place, 12th Floor
                                    New York, New York 10007


                                                   JUN 1 0 2IJ03


                                                                                              Control Number
                                                                                              ED-OIG/A02-COOI7

Honorable Cesar A. Rey
Secretary of Education
Puerto Rico Department of Education
Calle Tcniente Gonzalez, Esq. Calle Calaf - lih Floor
Urb. Tres Monjitas
San Juan, Puerto Rico 00919

Dear Secretary Rey:

This is our Final Audit Report entitled Puerto Rico Department of Education 's
Administration o/Contracts with the League of United Latin American Citizens National
Educational Service Center. The purpose of our audit was to determine whether the
Puerto Rico Department of Education (PRDE) properly administered various contracts
awarded to the League of United Latin American Citizens (LULAC) National
Educational Service Center (LNESC) during years 1994-95 through 2000-0 I. Our
objectives were to determine ifPRDE ensured that the services described in the proposals
and/or contracts were provided prior to payment of contractor's invoices and that the
expenses claimed were in accordance with program requirements and specifications.

We determined that LNESC generally provided the services described in the proposals
and/or contracts prior to payment from PRDE. However, PRDE did not have required
supporting documentation and paid unallowable costs for several contracts with LNESC.
PRDE did not concur with our findings. We made changes to the audit report based on
PRDE's comments. We have summarized PRDE's comments after each finding, and
have included PRDE's entire response as Attachment C.

                                                BACKGROUND

Founded in 1929. LULAC's objective is to assure that all Latin Americans receive a
better education and job opportunities and at the same time fight for their civil rights.
Since its inception, LULAC establi shed education as a priority. LULAC established
LNESC in 1974 to work toward preventing school dropouts among students, ages 12
through 21. LNESC is a 501 (c) 3 corporation. LNESC operates throughout the United
States and has a center in Bayamon, Puerto Rico that opened in 1994.




                                                               1 promote edurulional exce{{€na1lhroughoutthe Nation.
       Our mission is to ensure equal access to educalion and to
Final Report: ED-OIG/A02-C0017

PRDE awarded nine contracts totaling $1,477,492 to LNESC during school years 1994­
95 through 2000-01. PRDE funded these contracts using Elementary and Secondary
Education Act, as amended (ESEA), Title VI - Innovative Education Program Strategies
(Title VI), formerly known as Chapter 2; Title IV - Safe and Drug Free Schools (Title
IV); and Carl D. Perkins Applied Technology and Vocational Law, (Vocational
Education) funding.1 Seven of these contracts were intended to provide prevention
services to high-risk public school students from the Bayamón and San Juan school
regions. The other two contracts were intended to provide vocational training to single
parents and housewives.

On May 29, 2002, the Deputy Secretary of the U.S. Department of Education designated
PRDE as a “high risk” grantee under 34 C.F.R. § 80.12, making the agency subject to
special conditions in all of the Federal education programs that it administers.

                                      AUDIT RESULTS

Finding No. 1- PRDE did not have required supporting documentation and paid for
unallowable costs for several contracts with LNESC

PRDE did not have all required supporting documentation for all nine contracts awarded
to LNESC. As a result, PRDE paid LNESC $5,689 in questioned costs and $109,701 in
unsupported costs.2 This occurred because PRDE did not properly review LNESC’s
invoices for adequate and reliable supporting documentation prior to payment.

According to 34 C.F.R. § 80.20 (a),3 “ . . . Fiscal control and accounting procedures of
the State, as well as its subgrantees and cost-type contractors, must be sufficient to: . . .
(2) Permit the tracing of funds to a level of expenditures adequate to establish that such
funds have not been used in violation of the restrictions and prohibitions of applicable
statutes.” Further, 34 C.F.R § 80.20 (b) (2) states: “Grantees and subgrantees must
maintain records which adequately identify the source and application of funds provided
for financially-assisted activities. These records must contain information pertaining to
grant or subgrant awards and authorizations, obligations, unobligated balances, assets,
liabilities, outlays or expenditures, and income.”



1
 For award period 1994-95, Chapter 2 funds were used and for 1995-96, Title VI funds
were used. The remaining contracts used Title IV funds. In addition to the Title IV
contracts for award years 1996-97 and 1997-98, LNESC also had contracts funded with
Vocational Education funds.
2
 Questioned and unsupported costs include only those costs within the scope of audit
recovery due to the statute of limitations. The period of recovery is 1997-98 forward.
Attachment B illustrates questioned and unsupported costs that are unrecoverable. All
nine contracts were included in our audit scope.
3
    Unless otherwise specified, all regulatory citations are to July 1, 1998 volume.


                                               2

Final Report: ED-OIG/A02-C0017

Additionally, 34 C.F.R. § 80.20 (b) (6) states: “Accounting records must be supported by
such source documentation as cancelled checks, paid bills, payrolls, time and attendance
records, contract and subcontract award documents, etc.” OMB Circular No. A-122,
Attachment B, paragraph 14 provides that costs of amusement, diversion, social
activities, ceremonials, and costs relating thereto, such as meals, lodging, rentals
transportation, and gratuities are unallowable.

See Attachment A for details of the questioned and unsupported costs for 1997-98
through 2000-01 and Attachment B for 1994-95 through 1996-97. We identified
$109,701 in unsupported costs including telephone charges, accounting and audit
services, and the entire 1997-98 Vocational Education contract. Neither PRDE nor
LNESC could provide invoices or supporting documentation for the Vocational
Education contract payments. Questioned costs of $5,689 include charges for improper
payroll processing.

Recommendations:


We recommend that the Assistant Secretary for Elementary and Secondary Education and
the Assistant Secretary for Vocational and Adult Education require PRDE to:

1.1 	 Refund $5,689 in questioned costs and $109,701 in unsupported costs or provide
      supporting documentation of costs expended; and

1.2 	 Ensure all costs paid are allowable and all documentation supporting costs paid to
      contractors are maintained.

PRDE’s response:

PRDE did not concur with this finding or its recommendations. PRDE provided
supporting documentation for telephone charges totaling $300 that we considered to be
unsupported. PRDE stated that all payments made by the PRDE for the Vocational
Education contract were in accordance with the terms of the contract, which established
that the performance report and LNESC invoices were sufficient evidential matter to
support the costs expended. For the improperly invoiced payroll processing charges,
PRDE stated there was no supporting analysis or other detail proving that PRDE in fact
paid twice for the same services. Therefore, PRDE stated that the finding was
unsubstantiated and invalid, and no further action was deemed necessary. Additionally,
PRDE contended that payments were made in accordance with program and contract
requirements. Regarding the unsupported accounting services costs, PRDE contacted
LULAC’s accountant who explained that accounting services payments were allocated
through a formula basis to all LULAC subsidiaries. PRDE expects this information to
become available during coming weeks and will submit it to the OIG as soon as it is
received.

Finally, PRDE did not concur with the questioned costs for the high-cost restaurant
because the invoice total included both the facilities used for the meeting and the


                                            3

Final Report: ED-OIG/A02-C0017

breakfast consumed during the meeting. PRDE claimed that this was standard practice
whenever any restaurant, convention center, or other large group meeting facilities were
used. However, PRDE plans to implement controls to require the costs for facilities and
meals to be quoted and billed separately to avoid misunderstandings.

OIG’s reply:

We reviewed PRDE’s response, but did not change our findings or recommendations,
except for the unsupported telephone charges and the questioned costs for breakfast.
PRDE provided adequate supporting documentation for telephone charges totaling $300.
We also accepted PRDE’s explanation for the breakfast costs totaling $510 based on
PRDE’s plan to implement controls to require that the costs of facilities and meals be
quoted and billed separately. This resolves questions regarding group meetings held at
facilities that serve meals.

We still consider the $66,653 total costs for the Vocational Education contract as
unsupported. The contract required LNESC to submit a progress report with each
invoice, as well as a final report. These reports required the following information:
   1. Number of program participants in each course,
   2. Number and names of participants that finished each course,
   3. Participants’ proof of job placement, and
   4. The project’s achievements.

The contract also required LNESC to submit documents showing the students’ attendance
at interviews, meetings, conferences, and other services. The attendance lists had to be
certified by the institution’s director and social worker. Although LNESC submitted an
achievement report with each invoice, the report did not include the number and names of
the participants who finished each course or the participants’ proof of job placement.
Additionally, LNESC did not submit documents showing the students’ attendance at
interviews, meetings, conferences, and other services.

Lastly, in relation to the payroll processing charges, we have evidence that PRDE paid
twice for the same services, and we made this documentation available to PRDE’s
representatives.

Finding No. 2 – PRDE improperly paid $20,355 for the attendance of PRDE's
employees at a convention

Based on the review of the payments made to LNESC, we found that PRDE improperly
used Title VI, Innovative Education Program Strategies funds. Specifically, PRDE paid
$20,355 for 69 PRDE political appointees and employees to attend the LULAC 66th
National Convention and Exposition held in San Juan, Puerto Rico in the summer of
1995. PRDE improperly used LNESC’s employer identification number to process the
payment of the expenditure through the Puerto Rico Treasury Department. This occurred
because PRDE did not institute controls and train personnel to ensure only expenses




                                             4

Final Report: ED-OIG/A02-C0017

allowed by Title VI law were authorized. As a result, these Title VI funds were not used
for the direct benefit of students.

In accordance with the Innovative Education Program Strategies, Title VI, a State
educational agency may use funds made available for State use under this Title only for:

       (1) State administration of programs . . . including - - (A) supervision of
       allocation of funds to local educational agencies; (B) planning,
       supervision, and processing of State funds; and (C) monitoring and
       evaluation of programs and activities . . . and (2) technical assistance and
       direct grants to local educational agencies and statewide education reform
       activities. . .

Furthermore, funds made available to local educational agencies under section 6102 of
the Innovative Education Program Strategies, Title VI, shall be used for innovative
assistance such as technology related to the implementation of school-based reform
programs, programs to improve the higher order thinking skills of disadvantaged
elementary and secondary school students, and to prevent students from dropping out of
school.

The 66th LULAC convention included training sessions unrelated to elementary and
secondary education. Training subjects included titles such as: The census - its changing
demographics - what the future holds for the 2000 workforce; Affirmative action debate -
the potential impact on federal employment; and Access to capital for small business.
These, and the other topics, are not authorized activities as stated in the Title VI law.
Due to statute limitations these costs are outside the scope of audit recovery.

Recommendation:

We recommend that the Assistant Secretary for Elementary and Secondary Education
require PRDE to:

2.1 	 Institute controls and train personnel to ensure only expenditures allowed by Title
      VI law are authorized, and that the correct employer identification numbers are used
      for payments.

PRDE’s response:

PRDE stated that the employees who attended the convention were teachers and other
PRDE personnel working directly with program participants. Additionally, they claimed
that topics discussed during the convention such as Re-engineering partnership between
federal agencies and Hispanic serving institutions, Reinventing challenges and job
enhancements, and The role of equal employment opportunity commission were related to
LULAC’s objectives which are to ensure that all Latin Americans receive better
education and job opportunities, while fighting for their civil rights. PRDE has
implemented controls to ensure funds are properly allocated to the correct budget contract


                                            5

Final Report: ED-OIG/A02-C0017

year. Specifically, PRDE established that account numbers must be included in the
contract and that account numbers must be composed of the organization number and
contract year.

OIG’s reply:

We reviewed PRDE’s response and although some of the topics could be related to
LULAC’s objectives, they are not related with LNESC’s primary goal of preventing
school dropouts among young people between the ages of 12 and 21. The contract was
between PRDE and LNESC, and not between PRDE and LULAC. Also, PRDE’s
corrective action should ensure that the correct employer identification numbers are used
for payment.

Finding No. 3 - PRDE did not properly reimburse LNESC

PRDE failed to properly pay the last invoice for a 1997-98 Title IV contract. The invoice
was for $43,157, but PRDE only paid $19,534, resulting in an unpaid balance due to
LNESC of $23,623. This occurred because PRDE improperly paid LNESC’s last 1996­
97 invoice with 1997-98 funds, even though 1996-97 funds were still available.
However, the $23,623 needs to be reduced because LNESC did not have source
documentation for $20,000 in accounting and auditing fees, which LNESC included in its
final 1997-98 invoice. Since PRDE did not pay the $20,000, LNESC is due $3,623 for its
last submission of invoices for 1997-98.

According to 34 C.F.R. § 80.21 (g)(1): “Unless otherwise required by Federal statute,
awarding agencies shall not withhold payments for proper charges incurred by grantees
or subgrantees . . .” Further, 34 C.F.R. § 80.20 (b) (6) states: “Accounting records must
be supported by such source documentation as cancelled checks, paid bills, payrolls, time
and attendance records, contract and subcontract award documents, etc.”

Recommendations:

We recommend that the Assistant Secretary for Elementary and Secondary Education
require PRDE to:

3.1 	   Reimburse LNESC $3,623 for the net amount due from LNESC’s last 1997-98
        invoice; and

3.2 	   Institute controls to ensure funds are properly allocated to the correct budgeted
        contract year.

PRDE’s response:

PRDE did not concur with either the finding or the recommendation. PRDE stated that
the costs were not reimbursed because of lack of documentation and that the action of




                                             6

Final Report: ED-OIG/A02-C0017

reimbursing LNESC for this invoice would be illogical and contrary to sound
administration because they may be required to refund PRDE for unsupported costs.
PRDE has implemented controls by way of procedures manuals and monitoring guides to
ensure that expenses claimed are in accordance with program requirements. PRDE stated
that the controls mentioned in response to Finding 2 also ensure that funds are properly
allocated to the correct budget year.

OIG’s reply:

We reviewed PRDE's response, but our position remains unchanged. PRDE's claim that
they did not pay invoices due to a lack of supporting documentation is not consistent with
other invoices paid and with the documentary evidence. Rather, our evidence shows
PRDE did not pay the invoice because PRDE improperly allocated expenses to the
incorrect budget year. Lastly, we have accounted for the unsupported costs in our finding
by reporting LNESC is due $3,623, as opposed to the total invoice amount of $23,623.

                                  OTHER MATTERS

In a previous U.S. Department of Education Office of Inspector General audit report
(ED-OIG/A01-90007), we reported that PRDE failed to follow the Cash Management
Improvement Act, Zero Balance Accounting for the Governor’s Safe and Drug Free
School Program for the period 1998-99. Our finding reported that as of January 25,
2000, PRDE had not disbursed funds to eight institutions included in our testing. LNESC
was not included in this test, however, we identified an outstanding balance of $2,828
due to LNESC for the 1998-99 award year for these same funds. Per PRDE officials, the
outstanding balance remains at the Puerto Rico Governmental Development Bank
earning interest. PRDE must identify any additional outstanding balances, compute the
interest owed to the U.S. Department of Education (ED) for these balances, and remit to
ED the computed interest and the excess cash.

PRDE’s response:

PRDE stated that Zero Balance Accounts do not accrue interest. PRDE also responded
that they do not have any evidence of any outstanding account in the Puerto Rico
Governmental Development Bank. PRDE would appreciate if we would make available
evidence of any outstanding account.

OIG’s reply:

We reviewed PRDE’s response and our position remains unchanged. PRDE failed to
follow the Cash Management Improvement Act, Zero Balance Accounting. As a result,
the funds remained in the Puerto Rico Treasury Department account at the Puerto Rico
Governmental Development Bank earning interest until PRDE processed invoices for
payment. Furthermore, according to PRDE’s response to Finding 2 of report ED­
OIG/A01-90007, PRDE agreed to compute the interest owed to the Federal government
for funds that earned interest at the Puerto Rico Governmental Development Bank.



                                            7

Final Report: ED-OIG/A02-C0017

Finally, we can provide evidence that PRDE requested the total amount of the contract,
and an outstanding balance remains.

                  OBJECTIVES, SCOPE, AND METHODOLOGY

The purpose of our audit was to determine whether PRDE properly administered various
contracts awarded to LNESC during school years 1994-95 through 2000-01. Our
objectives were to determine if PRDE ensured that the services described in the proposals
and/or contracts were provided prior to payment of contractor’s invoices and that the
expenses claimed were in accordance with program requirements and specifications.

We performed our fieldwork at PRDE’s offices in Hato Rey, Puerto Rico, and LNESC’s
offices in Bayamón, Puerto Rico, from July 9, 2002 through November 14, 2002, the date
of our exit conference. Using the 1999-00 list of 49 schools LNESC served in the two
school districts, we randomly selected three schools from the Bayamón school region and
two schools from the San Juan school region for site visits. In the Bayamón region, we
made site visits to Juan Ramon Jimenez Intermediate School on September 25, 2002,
Cacique Agueybana Intermediate School on September 26, 2002, and Jose S. Alegria
High School on September 26, 2002. In the San Juan region, we made site visits to
Cesareo Rosa Nieves Intermediate School on September 25, 2002 and to Vila Mayo High
School on September 26, 2002.

To achieve the audit objectives, we interviewed officials from PRDE’s Office of Federal
Affairs, Payment Division, Vocational Education Office, and LNESC. We also
interviewed school counselors, and principals and obtained documentation from PRDE,
LNESC and Puerto Rico’s Treasury Department. We reviewed the available
documentation maintained by PRDE and LNESC for $1,477,492 in costs claimed for the
nine contracts awarded to LNESC. To meet our objectives we did not rely on computer
processed data from PRDE, LNESC, or ED.

We conducted the audit in accordance with generally accepted government auditing
standards appropriate to the limited scope of the audit described above.

                  STATEMENT ON MANAGEMENT CONTROLS

We did not review the management control structure of PRDE because we previously
reviewed the management controls, policies, procedures, and practices applicable to
PRDE’s administration of contracts in our recent audits (ED-OIG/A01-90006, ED­
OIG/A01-90007, ED-OIG/A01-A0004, ED-OIG/A02-B0012 and ED-OIG/A02-B0025).
Based on previous knowledge, we determined the level of control risk, that is the risk that
material errors, or irregularities, or illegal actions may occur, to be high.




                                            8

Final
Fin alReport:
      Report:ED-OIG/A02-C0017
              ED·OIG/A02·C0017



                            ADMINISTRATIVE MATTERS

If you have any additional comments or infonnation that you believe may have a bearing
on the resolution of this audit. you should send them directly to the following Education
Department official, who will consider them before taking final Departmental action on
the audit:

               Eugene Hickok
               Acting Assistant Secretary
               Office of Elementary and Secondary Education
               U.S. Department of Education
               Federal Building No.6
               400 Maryland Ave., SW, Room 3W3 15
               Washington D.C. 20202

Office of Management and Budget Circular A-50 directs Federal agencies to expedite the
resolution of audits by initiating timely action on the findings and recommendations
contained therein. Therefore, receipt of your comments within 30 days would be greatly
appreciated.

Statements that managerial practices need improvements, as well as other conclusions
and recommendations in this report represent the opinions of the Office of Inspector
General. Detenninations of corrective action to be taken wi ll be made by the appropriate
Department of Education officials.

In accordance with Freedom ofInfonnation Act (5 U.S.c. § 552). reports issued by the
Office of Inspector General are avai lable, if requested, to mem bers of the press and
general public to the extent info nnation contained therein is not subj ect to exemptions in
the Act.


                                      Sincerely,




                                      Daniel P. Schultz
                                      Regional Inspector General
                                      for Audit




                                            99
Final Report: ED-OIG/A02-C0017



                                      Attachment A

                           Puerto Rico Department of Education
                      Summary of Questioned and Unsupported Costs
    Award           Contract   Amount     Accepted Questioned Unsupported
    Period          Amount       Paid       Costs       Costs     Costs                       Notes
1997-98             $250,000    $250,000   $250,000     $       0 $       0
Voc Ed 1997-98        66,653      66,653          0             0   66,653                     1
1998-99              250,000     247,172    219,172        4,000    24,000                     2
1999-00              160,000     159,997    151,112            44     8,841                    3
2000-01              160,000     156,732    144,880        1,645    10,207                     4
Totals              $886,653    $880,554   $765,164       $5,689  $109,701



1. 	 All claimed costs for this contract were unsupported. An Office of Federal Affairs’
     official stated that the Vocational Education contracts were processed at PRDE’s
     Vocational Education Office, but officials from PRDE and LNESC were unable to
     provide us with the acceptable supporting documentation for costs.

2. 	 Questioned costs were for improperly invoiced payroll processing charges claimed in
     previous invoices. Unsupported costs were for accounting services and for an annual
     external independent audit. The only source documentation for these unsupported
     costs was an invoice submitted on LNESC’s letterhead.

3. 	 Questioned costs were for parking and art materials expenses already claimed in a
     prior month. Unsupported costs were for accounting services. The only source
     documentation for these unsupported costs was an invoice submitted on LNESC’s
     letterhead.

4. 	 Questioned costs were for improperly invoiced payroll processing charges claimed in
     a previous invoice. LNESC did not submit supporting documentation for accounting
     services, audit fees, and disability benefits. The only source documentation for these
     unsupported costs was an invoice submitted on LNESC’s letterhead.
   Final Report: ED-OIG/A02-C0017



                                          Attachment B

                           Puerto Rico Department of Education
                      Summary of Questioned and Unsupported Costs
                               Prior to the Recovery Period
    Award           Contract   Amount       Accepted Questioned Unsupported
    Period          Amount       Paid         Costs       Costs     Costs                     Notes
1994-95             $113,768    $112,947     $ 69,310       $ 3,063 $ 40,574                   1
1995-96              100,000      92,223       38,804             0   53,419
1996-97              332,071     298,262      149,277           524  148,461                   2
Voc Ed                45,000      45,000            0             0   45,000                   3
Totals              $590,839    $548,432     $257,391        $3,587 $287,454


For purposes of this audit, the recovery period included 1997-98 costs forward. This attachment
includes costs prior to the recovery period.

All unsupported costs represent costs that could not be traced to any invoices submitted by
LNESC. LNESC did not have source documentation for these costs.

1. 	 Questioned costs were for improperly invoiced items such as airfare, hotel, business cards,
     vertical blinds, a ribbon cutting ceremony, and an estimate (not an invoice) for a Career Day
     activity.

2. 	 Questioned costs were for improperly invoiced items such as Christmas decorations, flower
     bouquets, and two vases.

3. 	 All claimed costs for this contract were unsupported. An Office of Federal Affairs’ official
     stated that the Vocational Education contracts were processed at PRDE’s Vocational
     Education Office, but officials from PRDE and LNESC were unable to provide us with the
     supporting documentation for any of the costs.
Final Report: ED-OIG/A02-C0017

                                                               Attachment C



                                                                [!:;3
                                          Commonwealth of Puerto Rico
                                            DEPARTMENT OF EDUCATION

  OFFIC& OF FEDERAL AfFAIRS




             April 28, 2003



             Mr. Daniel P. Schultz
             Regional Inspector GeneraJ for Audit
             U.S. Department of Education
             O tlice of Inspector General
             75 Park Place, Room 1207
             New York, NY 10007

             Dear Mr. Schultz:

             We hl.'Teby submit our responses to your Draft Audit RepQlt dated March 28, 2003 on the
             audit of the Pueno Rico Department of Education's Admimstration of Contracts with the
             League of United Latin American Citizens l"ational Educational Service Center, (Control
             Number ED-O JG:A02-COOI7).

             We afe confIdent that upon reviewing our comments you will have additional meaningful
             information that should be taken into consideration before the final audit report is issued.

                       AUDIT RE.SULTS

             OIG's    Findin~      No. t
             PRDE did not have required supporting documentation <lnd paid for unallowable CO~IS for
             several contraCIS with LNESC.

             OIG 's Rccommendations
                • Refund S6.! 99 HI 4ut:stioncd costs (lnd $110,001 in                       unsupp()n~        costs or provide
                    supporting doc umentatiOn of costS expended; and

                  •    Ensure all costs paid are allowable and all documentation supporting costs paid to
                       contractors are maintained

             PRDE's Commen ts
             See Attachments A and B




  P O. BOX      190159,    S""    JI,; ... ,,'.   PUF;R10 ),tIeD 00919·0759    • PI/OriE      17( 7) ;$Q -89IO • F" X: 11 81 ) 751·6 192
  Ttl e O~p" rTment uf Education dDC ~ nOt d\~cri'nin'H~ if} ;\ 8 ~~I,,"n i~~ . CdUCa \lO nal £e,,'I CC~ or e",p!oym~nt opportullilic.~ on
  th e b"sI s of racc , color. SC:<. ag"'. biTth, ,,"tiollal origill. soc",J cond, ti on. polmca l \d ~,,~, ",]igiolls hehefs or ilny h:lndlcnp .
Final Report: ED-OIG/A02-C0017

                                            Attachment C


  Damiel P. Schultz
  Page 2


  OIG's Finding No.2
  PRDE improperly paid S20,355 for the attendance ofPRDE's employees at a convention.

  OIG's Recommendations
  Institute controls and train personnel to ensure that only expenditures allowed by Title VI
  law are authorized, and that the correct employer identification numbers are used for
  payment.

  PRDE's Comments:
  As stated in the OIG letter, LULAC's objectives are to ensure that all Latin Americans
  receive better education and job opportunities, while fighting for their civil rights. For
  this purpose PRDE employees need the most recent information regarding federal laws
  and regulations that could directly affect students. The employees who attended this
  convention were teachers and other PRDE personnel working directly with program
  participants. Therefore. PRDE understands that all related expenditures were authorized.

  Other topics discussed during the convention that were not mentioned in the leiter and
  that are indeed related to LULAC's objectives were:
      • Re-engineering partnership between federal agencies and Hispanic serving
          institutions,
      • Reinventing challenges and job enhancements,
      • The role of the equal employment opportunity commission.

  In addition, the PRDE is concerned about the definition of a political appointee
  ("ernpleados de confianza"). When the auditors were consulted about this, they
  explained to us that they refer to a political appointee as any person who holds a senior
  management position appointed directly by the Secretary during any particular
  administration. We would like to make it clear that this term does not have any negative
  implications or connotations.

  The PRDE has implemented the following controls to ensure funds are properly allocated
  to the correct budget contract year:
      • The PRDE established that account numbers must be included in the contract.
      • The PRDE established that account numbers must be composed of the
          organization number and contract year.

  OIG's Finding No.3
  PRDE failed to properly pay the last invoice for 1997-98 Title IV contract. LNESC's is
  owed $3,623 for its last submission of invoices for 1997-98.
Final Report: ED-OIG/A02-C0017

                                           Attachment C




          Oamiel P. Schultz
          Page 3


          OIG's Recommendations
            • Reimburse LNESC $3,623 for the net amount due from L~ESC's last 1997-98
                invoice: and
            • Institute controls to ensure funds are properly allocated to the correct budgeted
                contract year.

          PRDE's Comments
          The PROE do not concur with either the finding or the recommendation related to this
          point. PROE controls established that program personnel need all supporting
          documentation to authorize the payment of costs expended. These costs were not
          reimbursed because of lack of documentation. In addition, the PROE understands that
          the action of reimbursing LNESC for this invoice would be illogical and contrary to
          sound administration because they may be required to refund PROE for unsupported
          costs. Because of this PRDE does not concur with the OIG auditor recommendation to
          reimburse the S3 ,623.

          We would like to note that the PROE has implemented controls by way of procedures
          manuals and monitoring /,'1.lides to ensure that expenses claimed are in accordance with
          program requirements.

          Furthermore, as stated under Finding 2, the PRDE also implemented the following
          controls to ensure funds are properly allocated to the correct budget contract year:
             • The PRDf established that account numbers must be included in the contract.
                  The PROE established that account numbers must be composed of the
                  organization number and contract year.

          OTHER MATTERS

          Concerning these points, it is important to note that Zero Balance Accounts do not accrue
          interest. In addition, we do not have any evidence conceming the PROE holding any
          outstanding account in the GOB. However, if you have any such evidence, we would
          appreciate if you would make it available to us so we can clarify any doubts.

          If you have any questions, please feel tree to contact me at (787) 759-8910.

          Sincerely,
Final Report: ED-OIG/A02-C0017

                                              Attachment C




                                               Attachment A


                         PRDE Summary of Unsupported aud Questioned Costs
            Award      Contract  Amount   Accepted Questioned Unsupported                     Notes
            Period     Amouut      Paid     Cost        Cost         Cost
           1997-98      $250,000 $250,000  $249,700          $0           $300                  U
           VOCED          66,653   66,653         0           0        66,653                   1.2
           1997-98
           1998-99       250,000  247,172           219,172         4,000          24,000       1.3
           1999-00       160,000  159,997           150,602           554            8,841      14
           2000-01       160,000  156,732           144,880         1,645          J 0,207      1.3
           Totals       $886,653 $880,554         $764,354         $6,199        $110,001

           The PRDE does not concur with this finding or its recommendations.

              1.1    Our representatives requested information from LULAC concerning telephone
                     charges. LULAC's Executive Director provided us with copies of telephone
                     bills and emphasized to us that the requested information had previously been
                     submitted with their reimbursement request and was also provided to OIG
                     auditors during their visit to LULAC's facilities. However, we include all
                     documentation provided by LULAC. For a copy of the invoice see
                     Attachment C.
              1.2    The PRDE previously submitted this information to OIG auditors during their
                     visit. All payments made by the PRDE were in accordance with the terms of
                     the contract, which established that the performance report and LNESC
                     invoices were sufficient evidential matter to support the costs expended. In
                     addition, our representatives reviewed the OIG's audit work papers on April
                     23,2003 and noted that this evidence was complete in their files.
                     Accordingly, we do not understand why the amount was reported as
                     "unsupported" when the information already included in your work papers
                     provide adequate evidence that the payment was made pursuant to the contract
                     requirements.
              1.3    While reviewing the auditors' claim regarding a duplicate payment, there was
                     no such supporting analysis or other detail proving that the PRDE in fact paid
                     twice for the same services. Theretore, we believe that the finding is
                     unsubstantiated and invalid, and no further action is deemed necessary from
                     our part. The PRDE therefore understands that payments were made in
                     accordance with program and contract requirements. With regards to the
                     accounting services billed, our representatives requested information to
                     UJLAC national offices located in Washington, D.C., LULAC's accountant
                     explained us that accounting services payments were allocated through a
                     formula hasis to all LULAC's subsidiaries and information requested is
                     available outside of their premises in a file room. Due to the constricted time
                     period the information is still not available, but the PRDE expects that it will
Final Report: ED-OIG/A02-C0017

                                           Attachment C




                   become available during coming weeks and will be submitted to you as soon
                   as received.
             1.4   The PRDE does not concur with this questioned cost because the invoice total
                   includes both the facilities used for the meeting and the breakfast consumed
                   during said meeting. In fact, this is a standard practice whenever any
                   restaurant, convention center or other large group meeting facilities are used.
                   However, the PROE will implement controls to require that the cost of the
                   facilities and the cost of meals be quoted and billed separately to avoid
                   misunderstandings. Further source documentation has been requested from
                   LULAC and will be submitted to you as soon as received.
Final Report: ED-OIG/A02-C0017

                                              Attachment C




                                               Attachment B



                        PRDE Summary of Unsupported and Questioned Costs
            Award     Contract  Amount   Accepted    Questioned Unsupported                    Notes
            Period    Amount      Paid      Cost        Cost         Cost
           1994-95     SI13,768 $112,947    $69,310      $3,063       $40,574                   1.1
           1995-96      100,000   92,223     38,804           0        53,419                   1.1
           1996-97      332,071  298,262    149,277         524       148,461                   1.1
           VocED         45,000   45,000          0           0        45,000                   1.1
           Total       $590,839 $548,432   $257,391      $3,587      $287,454

              1.1    PRDE employees and representatives have additional information related to
                     this table that is available upon request. However, priority was given to
                     gathering the information related to the other findings due to the limited time
                     frame.
Final Report: ED-OIG/A02-C0017

                                                                                                                                                    Attachment C


                                                               From-LULAC MACEO                               ~29        BAYAMON PR                                                                  +797 7866933                                                      T-669                  P aag/a 16                       F-I za
                                                                                                                       CUl:NTA.                             785-8080                                      9Z5
                                                                                                                                                            19 ASR 1998
                                                                                                                                                                                                                                                                 A[.tach!,::'nt C




                                                                AVISO
             ESTA    FAtTURA IIEf\.EJA   AT~O PEllDlEKTE DE                                                                                                                                                             CENTRO NACIONAL LULAC
             PAIl1J.  ~STE   DEaE ,AGARS., EM SU lOTALIIWI                                                                                                                                                              29 CAllE MACI::O
             EN U AIITES DE\, 18 DE       IlAYO     DE 19911. DE                                                                                                                                                        JAYAMON          PR 00961-6338
             NO RECIBIRSE EN ESA FEC"A, SU SERYICIO SERA
             SUSPEIfOlOO • ~A IIECOHEXIO/f      111$/10 tDNLLEIIA                              on
             ON CARGO DE       11& • aD Y PUEDE REQUUIR UN
             DEPOSITO AIIICIIlMAL. . fEe"" Llln:n: NO APLICA A
             C\.UNUS CUM SEIII/ICIOS SUSPEllDlllOS ~REVIAI1ENTE.



  AI.
  11.2. Ilt:NTA. 1)1,: l:QUII'O                                                                                                                                                          Ol'ROS CAIIOOS '.:/0 Cltt;lJnOS
    II. M:Ct:sO UNt:A IMt>lJt'.sTO I'ok FCC                                                                                                             21 .50                        I. I.ARGA UIlHANCIA. INTIL\·ISL.\ t>K1'C                                                                                                               12.49
    C. SUtVIClO Mt:lJIIJO                                                                                                                               43.81                         J. l.AKG" IllllTI\NCIA 01"l1o.~                                                                                                                        5\1.83
    IJ. CAIWOS UtKt:crOlUo                                                                                                                                                               1'OTJ\1. CARt.OS C.OkKII::l'ftt:s                                                                                                                 .300.231
   .:. WATS                                                                                                                                                                              ATItASOS 0 CIII';UJ"I'OS                                                                                                                           282.51
   t·.                                                                                                                                                                                                                                                                                                                                           74




                 740-0935                                          3850                                                          1                  TELETECLA NEGOCIO                                                                                                                                                                                  2.50
                 740-0935                                          9\112                                                         1                  CARGO POR SERVICIO 7-1-1                                                                                                                                                                           1.00
                 785-8029                                          1011                                                          1                  TELEFONO PRII'IARIO NEGOCIO                                                                                                                                                                       23.05
                 785-8027                                          3850                                                          1                  TELETECLA NEGOCIO                                                                                                                                                                                  2.50
                 785-8029                                          9912                                                          1                  CARGO POR SERVICIO 9-1-1                                                                                                                                                                           1. 00
                 785-8D31                                          1038                                                          1                  ADD BUS HAIN LINE KEY TEL                                                                                                                                                                         36.65
                 785-8031                                          3800                                                          1                  TEL TOUCH SERV PBX TRUNK                                                                                                                                                                           3.75
                 785-8031                                          8102                                                           1                 TELEFONO NO EN GUIA                                                                                                                                                                                2.50
                 785-8031                                          9'112                                                         1                  CARGO POR SERVICIO 9-1-1                                                                                                                                                                           1.00
                 785-8080                                          1031                                                          1                  BUS ~AIN LINE KEV TEL SVS                                                                                                                                                                         36.65
                 785-8080                                          3800                                                          1                  TEL TOUCH SERV PBX TRUNK                                                                                                                                                                           3.75
                 785-8080                                          8530                                                          1                  GROUP HUNT FEA BUS HAIH                                                                                                                                                                           10.00
                 785-8080                                          '1\112                                                        1                  CARGO POR SERVICIO 9-1-1                                                                                                                                                                           1. 00
                                                                                      TOTAL SERVICIOS RENTADOS                                                                                                                                                                                                                              $162.00


                                                                            .                   ' .. '0 .... "00.. AL. t:LII!:Nf£
         "       D£l 1t1 DE oIUf,lt(] DE IYIIl, Pf',CV£f QUINCE 11111 DLM "" PARTIR DE I.A 'ECM Df! "~QuCiO PAM. PAI;AR U ~[TA.R IJo F'ACTlJfU, Y P'AAAI!IOlIO'tM lJNA IfWES.TIQACKlN .. LA
             I                      9fRVII;KI QUfOE AFECTADQ. EL AUOMADO PODRA O&l£NiR INRJRMACIOJrrt ESC"IT ... 't oru£NTAClON FlEJI,50NAL. VnUTAllDO LA DflClNA COMERCIAL Q
                                    $V ~E"'~f5oENrNHE OE SERvlCIO.
     •••• _ .......     ~   . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .I • • "

                                                                                                                1)~SI'R~:NlJA                       A\lUI V               Uk:VUEI.~A ~;,.                          '·AI.ONI\II.IO CON SU I'AOO
                                                                                                                                                                                                                                                                                                                   CKOEV OD

                                                                                                                                                         TALONARIO DE PAGO
                                                                                                                                            FeCHA                                                                   TOTAL A PAOAR
                    \785-8080-\125
                    •   HAQA sO PAGO A IIOMBRE DE PRTC
                    •   ENVlE~O AL P.O. BOX 11<101. SA" JUAN PA DD11J11-8601
                    •   ANOTE NUMERO DE Tf\.EFONO EN EL CHEQUE 0 OIRO
                    •   TOIlO CHEQUE DEVUELTO TENDAA UN CARGO ADICIONAL DE $10.011
                    •   CUENTES ACOOIDO& A PAGO DIRECTO EL TOTAL FACTUAADO SERA                                                                                                                                       CENTRO NACIONAL lUlAC
                        DEBITADC , ~ DIllS DfSPUfS DE LA FfCHll DE F!!ANQUfO                                                                                                                                          29 CALLE /'IACEO
                    •   NO DOBLE ESTE TALOHARIO··NI ElICRIBA DEBA.\O DE EIITA LINEA                                                                                                                                   BAYAMON          PR 00961-633&

                                                                                                                                                                    71401
                             REPORT DISTRIBUTION LIST
                            CONTROL NO. ED-OIG/A02-C0017


                                                                      No. of
Auditee                                                               Copies

Honorable César A. Rey                                                  1       

Secretary of Education 

Puerto Rico Department of Education 

Calle Teniente González, Esq. Calle Calaf – 12th Floor 

Urb. Tres Monjitas 

San Juan, Puerto Rico 00919 



ED Action Officials

Eugene Hickok                                                           1          

Acting Assistant Secretary for Elementary and Secondary Education 


Carol D’Amico                                                           1      

Assistant Secretary for Vocational and Adult Education 



Other ED Officials/Staff (electronic copy)

Audit Liaison Officer, OESE                                             1          

Audit Liaison Officer, OVAE                                             1          

Office of General Counsel, Correspondence Control                       1

OGC, Elementary, Secondary, Adult and Vocational Education              1

Deputy Secretary                                                        1       

Chief of Staff                                                          1      

Under Secretary                                                         1        

Director, Communications                                                1        

Chief Financial Officer                                                 1        

Acting AS, Legislative and Congressional Affairs                        1

AS Intergovernmental and Interagency Affairs                            1

General Operations Team                                                 1          

Post Audit Group, OCFO                                                  1          

Headquarters and Regional Managers                                      1

